                                 OIG Fraud Bulletin
                             Volume 1, No. 2                                                       June 2000
                             NUREG/BR 0272



                            This bulletin is intended to alert NRC employees to the possibility of
United States               impropriety in NRC programs and operations, and cause NRC employees
                            to take appropriate action to refer matters involving potential criminal vio-
Nuclear Regulatory          lations to OIG for appropriate investigation or review. With the advent of
Commission                  revolutionary changes in technology, our society is now able to conduct
                            banking, shopping and numerous other personal activities via computer
                            without ever leaving the confines of the home. These technological
                            changes have brought with them new and innovative fraud scams which
                            place the public at risk of substantial financial loss. Consequently, we are
Inside this issue:          also using this fraud bulletin as a means to alert NRC employees to fraud
                            schemes that the employee should be sensitive to in conducting their
Fraud Schemes         1-2   personal affairs.
Press Releases        2-6
                                                       Fraud Schemes
Fraud Indicators      7
                            The criminal statutes most often        Thus, a government employee or con-
Internet On-Line      8
                            used against government contrac-        tractor can be held subject to prose-
Auction Tips                tors and government employees           cution for acting in a fraudulent man-
                            who commit fraud include False          ner including, swearing to an untrue
Helping Seniors       8     Statements, False Claims and            statement on a financial disclosure
                            Conspiracy to Defraud.                  form, or on an application for a gov-
Credit Card Tips      9                                             ernment entitlement program or for
                            False Statements 18 United              any form of payment. This could be
Court Quips and       10    States Code (U.S.C.) § 1001             the result of a false contract voucher,
Hotline Information                                                 false certification to NRC of no organ-
                            This statute renders the willful        izational conflict of interest, a false
                            making of an untrue official state-     Time and Attendance (T&A) report, or
                            ment a crime. Under the statute,        a false Federal Employees Compen-
                            it is illegal to engage in any of       sation Act (FECA) application.
                            three types of activity in any man-
                            ner within the jurisdiction of any      The following is an illustration of the
                            department or agency of the             type of conduct which resulted in con-
                            United States: 1) falsifying, con-      victions for violations of this statute.
                            cealing, or covering up a material      A contractor was required to provide
                            fact by any trick, scheme, or de-       test certifications to the Department of
                            vice; 2) making false, fictitious, or   Defense for parts it supplied for use in
                            fraudulent statements or repre-         the breach mechanism of a 105mm
                            sentations; or 3) making or using       cannon. The test certifications pro-
                            any false documents or writing.         vided by the contractor contained
Page 2                                                                                          OIG Fraud Bulletin

 false representations because      fraudulent claim against any            total of $3 million in fines, pen-
 the tests had not been per-        agency or department of the             alties, and restitution. The ex-
 formed. The contractor was         United States. The crime is com-        ecutive vice president was
 convicted of making false          plete when the claim is pre-            sentenced to five consecutive
 statements in violation of 18 U.   sented. Payment of the claim is         two year prison terms.
 S.C. §1001 for that conduct. It    not an element of the offense and
 is significant to note that the    need not be proven to obtain a          Conspiracy to Defraud
 contractor was prohibited from     conviction. (In a related civil stat-   18 U.S.C. § 371
 introducing evidence that the      ute, 31 U.S.C. § 3729, the United
 parts would have passed the        States can recover treble dam-   This statute renders it illegal to
 tests if they were performed.      ages, plus the cost of the civil ac-
                                                                     agree with another person, or
 The only relevant issue was        tion, plus a forfeiture of $5,000 to
                                                                     to take joint action, to defraud
 whether the tests had been         $10,000 per false claim for any  the government. A conspiracy
 performed at the time the con-     false claims against the govern- is defined as two or more per-
 tractor made its certifications.   ment).                           sons agreeing to commit a
 The crime is complete upon                                          crime. Society views conspir-
 the submission of the state-     False travel claims and contract   acy as a serious offense and
 ment to the government. It is    vouchers are examples of this      worthy of separate punishment
 not necessary to prove that the  type of fraud.                     because two or more persons
 government relied on or was                                         working together can do more
 harmed by the false statement.   The following scheme is typical of harm than one and because a
                                  false claims violations which re-  conspirator, by definition, must
 False Claims                     sult in convictions. A contractor  have planned or premeditated
 18 U.S.C. § 287                  altered subcontractor invoices to the crime. Thus, a supervisor
                                  show inflated prices on pur-       who agreed with a subordinate
 This statute makes it illegal to chases made from a subcontrac- to falsify the overtime on time
 knowingly submit a claim to the tor. The inflated prices were then cards would have entered into
 government for money that is charged to the government re-          a conspiracy.
 undeserved or to present or      sulting in a monetary loss of over
 make any false, fictitious, or   $1 million. The company paid a

 Government Employee Convicted for Bribery
 Ronald Luna, former Project       value of the delivery orders        June 2, 2000, Luna was sen-
 Engineer for the Directorate      while allowing the submission of    tenced to 27 months in prison
 of Public Works and Logistics     invoices that were inflated by      and 3 years supervised proba-
 Division, Fort Bliss, TX, de-     over $100,000. Luna expected
 manded and accepted cash          to be paid a portion of the in-
 and checks from a govern-         flated billings after King's Aire
 ment contractor, King's Aire,     received payment from the De-
 El Paso, TX, in return for be-    fense Finance and Accounting
 ing influenced in the official    Service.
 performance of his duties as      Luna had previously been in-        tion. In addition, Luna was or-
 a project engineer at Ft. Bliss   dicted by a Federal grand jury      dered to pay $2,500 in criminal
 Army Base. Luna also falsi-       on four counts of bribery and       fines.
 fied delivery orders with         two counts of false claims
 King's Aire increasing the        against the United States. On
Volume 1, No. 2                                                                                       Page 3


Contractor Officers Sentenced for False Statements
On April 28, 1999, Sharp Con-          The investigation revealed that       comptroller for Sharp Inc.,
struction Company, Inc., (Sharp,       Sharp Inc., failed to pay its em-     and Bommegowda Lokesh,
Inc.) plead guilty to making false     ployees at the prevailing wage        former project manager for
statements to the Department of        rates pursuant to the Davis Bacon     Sharp Inc., were sentenced
Labor (DOL) in connection with a       Act, Title 40, United States Code,    for making false payroll re-
Department of Veterans Affairs         §76a. Sharp Inc., specializes in      ports in connection with fed-
program. Sharp Inc., aided and         the construction of government fa-    erally funded government
abetted the making and prepara-        cilities and worked for several       contracts.
tion of false certified payrolls and   Federal government agencies, in-
the submission of these false pay-     cluding the United States Postal      Sharp Inc., was sentenced to
rolls to the DOL.. Canale plead        Service (USPS). Investigators         3 years probation and a
guilty to conspiring to make false     were able to determine that during    $25,000 fine. Currently sus-
statements to the DOL. Canale          the time Sharp Inc., performed        pended, Sharp Inc., also may
prepared and submitted false cer-      work under a USPS contract val-       be permanently barred from
tified payrolls to the DOL on a        ued at approximately $2 million,      receiving future government
Veterans Affairs and U.S Army          he obtained approximately             contracts. The company has
contract. Bommegowda's guilty          $14,000 from the USPS through         also paid restitution. Canale
plea is based on false testimony       the submission of false certified     was sentenced to 2 months
before the Federal grand jury re-      payroll reports. Sharp Inc., worked   in a half-way house, 6
garding the submission of false        on various USPS projects from         months home detention, and
certified payroll to the govern-       1986 through 1993.                    3 years probation. Lokesh
ment.                                                                        was sentenced to 3 years
                                       On September 23, 1999, Sharp          probation, 6 months home
                                       Inc., Alfred E. Canale, former        confinement, and a $2,000
                                                                             fine.
Theft of Government-Owned Fuels
 The investigation of Charles      perintendent for the Allied Man-          submitting false statements
 Rabico, an owner of Owners        agement of Texas, a company un-           and theft of U.S. Govern-
 Operators Petroleum Coop-         der contract to manage distribu-          ment property in connection
 eration (OOPC), Ontario, CA       tion of military fuels at DESC, San       with Department of Defense
 was the result of a 3 year in-    Pedro, CA, in order to illegally re-      contracts. On October 20,
 vestigation into the theft and    move several thousand gallons of          1999, Rabico, was sen-
 re-sale of government-owned       military jet fuel. The fuel was re-       tenced to 4 months home
 fuels. OOPC, a trucking com-      sold to the commercial aviation           detention and 36 months
 pany owned by Rabico, was         market or blended with other fuels        supervised probation.
 under contract with the De-       and resold to commercial gas sta-
 fense Energy Supply Center        tions as diesel fuel. Mellies was
 (DESC), San Pedro, CA to          also convicted/sentenced on simi-
 transport jet aircraft fuel to    lar charges in April 1999.
 various military installations
 throughout Southern Califor-      On June 24, 1999, Rabico pled
 nia. Rabico conspired with        guilty to a three-count indictment
 Dale Mellies, Assistant Su-       that charged him with conspiracy,
Page 4                                                                               OIG Fraud Bulletin


 Company Officer Sentenced

 Mirza Ali operated as a princi-      and bank fraud. On April 24,       diem, or daily living expense re-
 pal of his wife’s company, Sam-      2000, Ali was sentenced in         imbursement than he was enti-
 tech Research, Fremont, CA,          Federal District Court, Northern   tled to claim. The investigation
 despite his previous debarment       District of California, Oakland,   revealed Adams never con-
 from Federal contracting by the      CA, to 30 months incarceration,    ducted a house-hunting trip;
 United States Department of          4 years supervised probation       that Adams’ girlfriend, not his
 Health and Human Services.           upon release, ordered to pay       wife, along with the girlfriends’
 Ali utilized the aliases Zulfiqar    $602,682 in restitution to the     children and some of Adams’
 Eqbal and Henry Stone to fur-                                           children relocated to Battle
 ther the fraud schemes. Sam-                                            Creek; and that Adams had
 tech Research was awarded                                               falsely claimed rent and breach
 Department of Defense (DoD)                                             of lease payments on an apart-
 contracts valued at more than                                           ment in Ohio. Adams was not
 $3 million during the debar-                                            making any such payments and
 ment period based upon the                                              the false claim caused losses
 false statements of Ali and his                                         to the government in excess of
 wife, Sameena Ali. The DoD                                              $25,000.
 discovered Ali’s previous de-
 barment and cancelled the                                               On May 15, 2000, Adams was
 contracts prior to paying Sam-       Cupertino National Bank and to     sentenced to 6 months home
 tech Research any funds.             pay a special assessment of        detention, 5 years probation,
                                      $600 to the Department of Jus-     restitution of $24,041 and a
 The investigation disclosed          tice.                              $100.00 special assessment
 that Ali, using an alias and an                                         fee.
 illegally obtained social security
 number, applied for an
 $800,000 home construction
                                      False Expenses                     On May 30, 2000, Adams en-
                                                                         tered into a civil settlement
 loan from Cupertino National                                            agreement with the U.S. Attor-
 Bank, Cupertino, CA. Ali ob-         Walter Anthony Adams, a gen-       ney’s Office, Grand Rapids, MI.
 tained in excess of $240,000         eral supply specialist, Defense    In accordance with the agree-
 from Cupertino National Bank         Logistics Information Service,
 under false pretenses and by         Defense Logistics Agency, Bat-
 providing false information to       tle Creek, MI, submitted a false
 the banks loan officer. Cuper-       claim for reimbursement of
 tino National Bank is a federally    moving expenses in connection
 insured bank.                        with his relocation from Colum-
                                      bus, OH, to Battle Creek, MI.
 On September 24, 1999, Ali           Specifically, Adams claimed his
 was convicted of making false        wife and children accompanied
 statements to the United States      him on various dates from May
 Government, conspiracy to            1998 to August 1998, during his
 make false statements to the         permanent change of station        ment, Adams will pay the gov-
 United States Government,            relocation. Adams claimed he       ernment $28,213 plus accrued
 making a false loan application      was entitled to a larger per       interest.
Volume 1, No. 2                                                                                         Page 5



Supply Company Misrepresented Product
Robert M. Silver, former Presi-                                          On February 1, 2000, Silver was
dent of Silver Sales, Inc., (SSI),                                       sentenced in U.S. District Court,
Calabasas, CA, who had been                                              Los Angeles, CA to 33 months
previously suspended an de-                                              incarceration, 3 years supervised
barred from conducting busi-                                             release, restitution to the govern-
ness with the government, sub-                                           ment in the amount of
mitted false claims to the De-                                           $148,088.93, and ordered to pay
fense Supply Center (DSC),                                               a $50 special assessment.
Richmond, VA, misrepresent-
ing the manufacturer and qual-                                           Silver was immediately re-
ity of the chemical products                                             manded to the custody of the
supplied on DSC contracts.                                               U.S. Marshals to begin serving
NASA and other government                                                his sentence.
agencies purchased chemicals
from the DSC. NASA used
one of SSI’s non-approved
chemicals to control humidity
while testing engines which
were destined for the NASA
Orbiter.



Electric Company Violated Major Fraud Act
Olson was created by Olson           in-house estimate. Olson was         representations and promises).
Electric Company, Daytona            also awarded a NASA subcon-
Beach, FL in order to obtain         tract valued at $850,000 to per-     On February 16, 2000, Olson
small business set-aside con-        form electrical modifications at     was sentenced in U.S. District
tracts at Kennedy Space Cen-         KSC. In furtherance of the           Court, Orlando, FL, and or-
ter (KSC), FL. Olson falsely         scheme to defraud, Olson sub-        dered to pay $885,519 in resti-
certified it was a small woman-      mitted numerous false claims         tution to NASA and a special
owned business in order to ob-       under the two subcontracts re-       assessment of $200.
tain a $3.2 million National         sulting in overpayment totaling
Aeronautics and Space Ad-            approximately $885,519.
ministration (NASA) subcon-
tract to refurbish a Shuttle         On November 17, 1999, Olson
Launch Pad at KSC. The firm          pled guilty to a one count crimi-
then entered into management         nal information for violating the
agreements with Olson Electric       Major Fraud Act, Title 18
Company to perform the con-          U.S.C. § 1031 (defrauding the
tract. The bid submitted by Ol-      United States in order to obtain
son was an identical match to        money or property by means of
the government's independent         false and fraudulent pretenses,
Page 6                                                                                       OIG Fraud Bulletin


Restitution of almost 1.5m for dumping petroleum-based wastewater

On October 20, 1999, Attaluri,     pose of the water. Allied and
Allied Environmental and Over-     Attaluri knew that the treatment
holt, were found guilty of con-    utilized at their Bonner Springs
spiracy to inject liquid waste     Tank Farm could not treat the
into a Class II Disposal Well      petroleum-impacted wastewa-
without a permit; transporting     ter properly and remove the pe-        Leaking underground water tanks.
hazardous waste without a          troleum adequately.
Manifest; mail and wire fraud.
In addition, the subjects were
found guilty of defrauding the     Allied and Attaluri then ar-       On April 11, 2000, Allied Envi-
United States by impeding, ob-     ranged with Overholt to have       ronmental Services, Inc., of
structing and defeating the law-   the improperly treated waste-      Kansas City, KS; Koteswara At-
ful function of the Environ-       water transported to Oklahoma      taluri, President of Allied Envi-
mental Protection Agency and       and illegally injected into dis-   ronmental Services and Mac
the Department of Defense.         posal wells in Cushing, Buffs,     DeWayne Overholt, owner of
Overholt was also found guilty     and Lincoln County, OK. The        Overholt Trucking, Terlton, OK,
of violating the Clean Water                                          were sentenced in the Northern
Act, Resources Conservation                                           District of Oklahoma, Tulsa,
and Recovery act and making                                           OK. Allied Environmental Ser-
false statement to government                                         vices was sentenced to 5 years
officials. The guilty verdicts                                        probation and a special assess-
were a result of a 6-week trial                                       ment of $400. Attaluri was sen-
held in the Northern District of                                      tenced to be imprisoned for a
Oklahoma, Tulsa, OK.                                                  term of 55 months and upon re-
                                                                      lease 3 years supervised pro-
                                                                      bation and pay special assess-
Allied entered into subcontracts                                      ment of $100. Overholt was
with three separate corpora-                                          sentenced to be imprisoned for
tions, which had contracted        unauthorized use of injection      a term of 87 months and upon
with the United States Govern-     wells is prohibited in order to    release 3 years supervised pro-
ment to remove underground         prevent endangerment of un-        bation and pay $350. All three
storage tanks and the associ-      derground drinking water           defendants were found jointly
ated petroleum-impacted            sources.                           and severally liable for restitu-
wastewater from various mili-                                         tion in the amount of
tary facilities in Kansas and                                         $1,265,078.66.
Missouri. Pursuant to the sub-     The activity took place over a
contracts, Allied and Attaluri     15-month period during 1994
agreed to remove the wastewa-      and 1995 and involved the dis-
ter, properly treat the wastewa-   posal of over 288,000 gallons
ter at their Bonner Springs        of petroleum-impacted waste-
Kansas Tank Farm to remove         water.
the petroleum, and properly dis-
Volume 1 Issue 2                                                                                    Page 7


Be Alert for Fraud Indicators
The government employee, es-          FRAUD INDICATORS                 ments provided for the same
pecially procurement officials                                         items with unit prices varying
and Contracting Officer Repre-        Falsification of Documents       widely for the same part, for no
sentatives, must be alert for pos-                                     obvious reason.
sible instances of fraud. The           1. The unit price on the
best way to accomplish this is to   original invoices do not match     The government employee
be familiar with fraud indicators.  the unit prices on the copies.     should periodically reverify the
                                    Apparently, some have been         integrity of the accounting and
A fraud indicator only means        altered by putting additional      operating system he or she re-
that a given situation is suscepti- numbers in front of the price or   lies on. This can be done by do-
ble to fraudulent practices. It     by moving decimals.                ing transactional and compli-
does not mean that fraud exists.                                       ance testing on a selected ba-
The NRC employee’s role is not          2. Discount terms at the       sis. In this case, it would involve
to prove fraud (the intent to de- bottom of the invoice have           requesting original documenta-
ceive the government) but to re- been “whited out” so the em-          tion from the contractor to sup-
fer potential instances of          ployee would not notice an of-     port the purchase order history.
fraudulent practices to the         fered discount.                    In other cases, the government
NRC’s Office of the Inspector                                          employee may want to get third
General (OIG). The OIG is            Fraud Indicators                  party confirmations from the ac-
trained in numerous techniques                                         tual vendors. This step might
for determining whether the in-     -- Original documentation con-     only be done on one or two
tent to deceive NRC exists. Re- sistently unavailable for the          transactions per purchase order.
member, fraud is most likely to     government official’s review.      The employee must be alert to
occur when the opportunity for      -- Consistently poor, illegible    changes in how a system works
undetected misconduct out-          copies of supporting documen-      after he or she has reviewed
weighs the chance for being         tation.                            and accepted it. Reliance must
caught.                             -- Different supporting docu-      be based on continual review.



                      INTERNET ON-LINE FRAUD TIPS
 Online Auction Tips*                   sumer Protection Agency and •       Be especially careful if
                                        Better Business Bureau where        the seller is a private in-
 •    Understand how the auc-           you live and also where the         dividual. Most consumer
      tion works. Many online           company is located. Look at         protection laws and gov-
      auctions simply list items        the auction site’s feedback         ernment agencies that en-
      that people want to sell.         section for comments about          force them don’t deal with
      They don’t verify if the mer-     the seller. Be aware that glow-     private sales, so if you
      chandise actually exists or       ing reports could be “planted”      have a problem, it could
      is described accurately.          by the seller and that a clean      be impossible to resolve.
                                        complaint record doesn’t guar-
 •    Check out the seller. For         antee that someone is legiti-
      company information, con-         mate.
      tact the state or local Con-
Volume 1, No. 2                                                                                           Page 8


    Internet Online Fraud Tips con’t.                                       Helping Seniors
•    Get a physical address
                                          you pay.
                                                                            Targeted for
     and other identifying in-        •   Use common sense to               Telemarketing
     formation. You'll need the           guide you. Ask yourself. Is
     seller's name, street ad-            what the seller promises re-      Fraud*
     dress and telephone num-             alistic? Is this the best way
     ber to check them out or fol-        to buy this item? What is the
     low up if there is a problem.        most I am willing to bid for  How can you tell if an older
     Don't do business with sell-         it?                           relative, friend or client may be
                                                                        a target for telemarketing
                                      •   Pay the safest way. Re-       fraud?
                                          questing cash is a clear sign
                                          of fraud. If possible, pay by     Here are some warning
                                          credit card because you can       signs:
                                          dispute the charges if the
                                          goods are misrepresented          •   The person received lots of
                                          or never arrive. Or, use an           junk mail for contests, “free
                                          escrow agent who acts as a            trips,” prizes and sweep-
                                          go-between to receive the             stakes;
          Comparing bids on-line.         merchandise and forward
                                          your payment to the seller.       •   The person gets frequent
                                          Another option is cash on             calls from people offering
                                          delivery (COD). Pay by                valuable awards, great
     ers who won't provide that           check made out to the                 money-making opportuni-
     information.                         seller, not the post office, so       ties, or charitable donations;
•    Ask about delivery, re-              you can stop payment if
     turns, warranties and ser-           necessary.
     vice. Get a definite delivery
     time and insist that the ship-   •   Let the auction site know
     ment is insured. Ask about           if you have a problem.
     the return policy. If you're         Some sites investigate prob-
     buying electronic goods or           lems like "shills&quote”; be-
     appliances, find out if there        ing used to bid prices up or
     is a warranty and how to get         other abuses of the auction
     service.                             system. They may also want
                                          to know about sellers who     •       The person has lots of
•    Be wary of claims about              don't deliver or misrepresent         cheap items such as cos-
     collectibles. Since you              their wares. A bad record             tume jewelry, watches, pens
     can't examine the item or            may result in a seller being          and pencils, small appli-
     have it appraised until after        barred from using the site            ances, beauty products, wa-
     the sale, you can't assume           again.                                ter filters, or other products
     that claims made about it                                                  that he or she either pur-
     are valid. Insist on getting a   *The above information comes              chased in order to “win”
     written statement describing     directly from the National Con-           something or received as
     the item and its value before    sumers League.                            so-called “valuable prizes;”
Volume 1, Issue 2                                                                                     Page 9



    Helping Seniors, con’t.
•    The person has made nu-            tations that seem suspi-        Don’t trust a site just be-
     merous checks or withdraw-         cious;                          cause it claims to be secure,
     als for escalating amounts     •   Have a calm discussion and      Before using a secured trans-
     of money to unfamiliar, out-       try to come to an agreement     action site, check out the en-
     of-state companies;                about the best way to han-      cryption software it uses. Con-
•    The person begins to act           dle the person’s finances in    tact the company that is provid-
     very secretively about             the future. If he or she        ing the technology to make
     phone calls;                       seems to be truly incompe-      sure that it is actually being
•    The person is having pay-          tent, seek legal advice; help   used. Some sites may claim to
     ments picked up by private         the person change his or        be encrypted when they actu-
     courier services or wiring         her phone number, if neces-     ally are not. If you are not sure,
     money to companies;                sary.                           ask for an alternate method of
•    The person is having sud-                                          payment.
     den problems paying bills,     Online Credit Card Tips*
     or buying food or other ne-                                        •   Read the fine print. If you
     cessities.                Don’t give out your credit                   receive an offer for a pre-
                               card number online unless the                approved credit card or if
Don’t:                         latest security protocols are in             someone says they’ll help
• Blame the person for being   place and you know and trust                 you get a credit card, find
  stupid, greedy or foolish.   the company in question.                     out the details first. You
  Telemarketing swindlers are When you input your credit card               need to know what interest
  good at what they do and                                                  rate you will be paying and
  take advantage of people’s                                                for how long. Some credit
  honesty, politeness and op-                                               cards offer low rates as
  timism;                                                                   “teasers” that are raised af-
• Threaten to take away the                                                 ter a certain period of time
  person's financial or physi-                                              or only apply to balances
  cal independence. This                                                    transferred from other
  may only make the person                                                  cards. You also need to
  secretive and resentful.     information at a website or                  know about any annual
                                    send it in an e-mail, that infor-       fees, late charges or other
Do:                                 mation is transmitted across the        fees, and whether there are
• Help the person assemble          internet as if it were written on       grace periods for payment
   the information to report the    the back of a postcard. To en-          before interest is applied. If
   fraud to the state or local      sure the security of your ac-           the terms of the offer aren’t
   consumer protection agency       count, that information should          provided or aren’t clear,
   or to the National Fraud In-     be encrypted using the latest           look for a credit card from
   formation Center;                technology. A fraudulent site           someone else.
• Emphasize the criminal na-        may tell you that you don’t need
   ture of telemarketing fraud      to encrypt the information.
   and help the person learn        Don’t believe it.
   how to identify it;                                                  *The above information comes
• Encourage the person to                                               directly from the National Con-
   hang up on telephone solici-                                         sumers League
                     ar
  United States Nucle                                     Things P
                                                                  eople
                                                                      Actually
  Regulatory Commission                   Q. Wh
                                                 at is you
                                                                               Said In
                                                                                       Court
                                          A. July         r date o
                                                  fifteent        f birth?
                                         Q. Wh             h.
                                                at year?
                                         A. Eve
     Mail Stop T 5D-28                          ry year.
          USNRC
    Washington, DC 20555               Q. What
                                                 gear wer
                                      A. Guc               e you in
      Phone: 301-415-5930                      ci sweat             at the m
                                                        s and Re            oment o
                                                                 eboks.            f the im
       Fax: 301-415-5091                                                                   pact?
     Hotline: 800-233-3497            Q. All y
                                               our resp
                                                        onses m
                                          W hat sc               ust be o
                                                    hool did             ral, OK?
                                     A. Ora                  you  go to?
                                            l.

                                    Q. Sir,
                                              what is y
                                    A. Well                our IQ?
                                              , I can s
                                                          ee prett
                                                                    y well, I
   Call the Hotline!               Q. Doc
                                            tor, how
                                                                              think.
                                                        many au
    800-233-3497                   A. All m
                                  Q. Doc
                                             y autops
                                                         ies are p
                                                                  topsies h
                                                                             ave yo u
                                                                                       perform
                                           tor, bef                erforme                     ed on de
                                                     o r e  y                d on dea                     ad people
                                  A. No.                     ou perfo                  d people                    ?
                                                                       rmed th                  .
                                 Q. Did                                         e au topsy, did
                                          you chec                                                you che
                                 A. No.               k for blo                                           ck for a
                                                                 od press                                          pulse?
                                                                           ure?
                                Q. Did
                                         you chec
                                A. No               k for br
                                                               eathing?
                               Q. So t
                                       hen it is
                               A. No.              possible
                                                               that t he
                                                                          patient
                              Q. How                                               was alive
                                        can you                                               when yo
                              A. Bec              b e  so sure, D                                      u began
                                      ause his                      octor?                                     the auto
                                                 br a                                                                   psy?
                             Q. But                  in   wa s sitting on
                                      could th                             my des k
                             A. It is           e patien                             in a jar.
                                      possible              t have s
                                                that he              till been
                                                            could ha           alive nev
                                                                      ve been            ertheles
                                                                               alive and            s?
                                                                                          pract icin
                                                                                                     g law som
                                                                                                               ewhere .



Call the Office of the Inspector General Hotline

The Hotline does not investi-
gate people who report miscon-
duct. Investigations target
people who are doing some-
thing wrong. Don’t be afraid to
report your concerns. Only by
reporting wrongdoing can
something be done.

          Call:
800-233-3497
